               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




             Officer Compensation for
                Calendar Year 2010

                       Audit Report




                                         September 23, 2011

Report Number FT-AR-11-011
                                                                 September 23, 2011

                                                          Officer Compensation for
                                                                Calendar Year 2010

                                                      Report Number FT-AR-11-011



IMPACT ON:                                  cap. We also recommended they report
The U.S. Postal Service’s compliance        and pay the correct amount of Social
with the Postal Accountability and          Security and Medicare wages and
Enhancement Act of 2006 (Postal Act of      taxes, establish accounts receivables for
2006) salary cap limits (the cap).          officers’ portions of Social Security and
                                            Medicare taxes on deferred
WHY THE OIG DID THE AUDIT:                  compensation, and modify the payroll
Our objective was to determine whether      system to calculate Social Security and
the Postal Service complied with the        Medicare taxes on deferred income.
cap, Postal Service policies and
guidelines, and Internal Revenue            WHAT MANAGEMENT SAID:
Service (IRS) regulations for calendar      Management disagreed that the Postal
year (CY) 2010 officer compensation.        Service exceeded the cap and also with
                                            the related monetary impact, but agreed
WHAT THE OIG FOUND:                         to link enhanced compensation to
The Postal Service did not always           performance in current and future
comply with the cap and with IRS            agreements. They also agreed to report
regulations. We identified an officer who   and submit corrected Social Security
exceeded the cap because he received        and Medicare wages and taxes,
a retention bonus that was not tied to      establish accounts receivables for the
performance. An additional officer is at    employees’ portion of these taxes, and
risk of exceeding the cap in CY 2011 if a   modify processes and/or systems to
similar retention bonus is paid. The        calculate appropriate taxes.
Postal Service also did not report Social
Security wages or withhold and pay          AUDITORS’ COMMENT:
taxes on deferred compensation for one      The OIG considers management’s
officer. Furthermore, the Postal Service    comments responsive to the
did not timely report Medicare wages or     recommendations and corrective actions
timely withhold and pay taxes on            should resolve the issues identified in
deferred compensation for one prior and     the report. However, we maintain that
four current officers.                      the Postal Service exceeded the cap for
                                            one officer, because the retention bonus
WHAT THE OIG RECOMMENDED:                   was not tied to performance.
We recommended management
develop and implement policies and          Link to review the entire report
procedures to ensure adherence to the
September 23, 2011

MEMORANDUM FOR:            PATRICK R. DONAHOE
                           POSTMASTER GENERAL

                           TIMOTHY F. O’REILLY
                           VICE PRESIDENT, CONTROLLER




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – Officer Compensation for
                           Calendar Year 2010 (Report Number FT-AR-11-011)

This report presents the results of our audit of officer compensation for calendar year
2010 (Project Number 11BM003FT001).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Mary Anne Gibbons
    Julie S. Moore
    Mia Han
    Jean D. Parris
    Dean R. Rodman
    Corporate Audit and Response Management
                                                 TABLE OF CONTENTS


Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Compensation Cap .............................................................................................................. 2

IRS Wage and Tax Regulations ......................................................................................... 2

Recommendations .............................................................................................................. 5

Management’s Comments .................................................................................................. 5

Evaluation of Management’s Comments ............................................................................ 6

Appendix A: Additional Information..................................................................................... 8

   Background ...................................................................................................................... 8

   Prior Audit Coverage ..................................................................................................... 10

Appendix B: Monetary and Other Impacts ....................................................................... 11

Appendix C: Management’s Comments ........................................................................... 12
Officer Compensation for Calendar Year 2010                                                            FT-AR-11-011




Introduction

This report presents the results of our audit of calendar year (CY) 2010 compensation
paid or deferred to officers 1 based on the limits established in the Postal Accountability
and Enhancement Act of 2006 (Postal Act of 2006) and U.S. Postal Service policies and
guidelines (Project Number 11BM003FT001). The objective of this portion of the fiscal
year (FY) 2011 Financial Statements Audit – Eagan Information Technology and
Accounting Service Center (IT/ASC) was to determine whether the U.S. Postal Service
complied with the Postal Act of 2006 limits (the cap), Postal Service policies and
guidelines, and Internal Revenue Service (IRS) regulations for CY 2010 compensation
for officers. We will continue to provide a report annually as part of our ongoing financial
statement audit work. This self-initiated audit addresses financial risk. See Appendix A
for additional information about this audit.

The passage of the Postal Act of 2006 amended Title 39 and revised the cap imposed
on total compensation payable to Postal Service employees. Postal Service officers
receive additional benefits including increased annual leave exchange hours, free
financial counseling, parking, life insurance, and health benefits. 2 These items are not
generally subject to the compensation guidelines defined in the Postal Act of 2006.
Also, in certain limited cases, the Postal Service entered into agreements to provide
executive retention bonuses that may take the form of deferred compensation. In a
letter to the postmaster general dated November 23, 2010, Senator Susan M. Collins,
Ranking Member, Homeland Security and Governmental Affairs Committee, inquired
about these bonuses. In a response dated December 7, 2010, the Postal Service
provided information on these agreements and stated that it uses them only when
necessary to recruit or retain talent.

Conclusion

The Postal Service did not always comply with the compensation cap as stated in the
Postal Act of 2006 and with IRS wage and tax regulations. Compensation that is not
directly tied to performance is subject to the cap, even if that compensation is deferred
to a later date. In one case, we identified an officer who exceeded the cap because he
received a retention bonus that was not tied to performance. The Postal Service is at
risk in CY 2011 of exceeding the cap on an additional officer if it pays a similar retention
bonus.

The Postal Service also did not report Social Security wages or withhold and pay
associated taxes on deferred compensation for one officer. Furthermore, the Postal



1
 Defined in this report as Postal Career Executive Schedule II employees.
2
 The Postal Service offers driver and personal security services through the U.S. Postal Inspection Service to the
postmaster general.
                                                          1
Officer Compensation for Calendar Year 2010                                                              FT-AR-11-011



Service did not timely 3 report Medicare wages or timely withhold and pay associated
taxes on deferred compensation for one prior and four current officers.

Compensation Cap

Of 42 officers reviewed, we identified one whose salary, merit pay, 4 and retention bonus
exceeded the highest compensation cap imposed by the Postal Act of 2006. We noted
that the retention bonus was deferred 5 and was not tied to any performance goals and
measures and, therefore, should have been subject to compensation caps. 6 The Postal
Service contended that deferred guaranteed retention bonuses should be excluded from
the compensation cap. However, based on several Government Accountability Office
(GAO) comptroller general decisions, 7 deferred retention bonuses not related to
performance are considered wages in the year they are earned. Also, compensation
plans with guaranteed retention bonuses that are regular, expected and can be readily
characterized as the equivalent of salary must be considered part of the compensation
governed by legal limits. As a result, during CY 2010, the Postal Service paid this officer
$59,174 above the compensation cap imposed by the Postal Act of 2006. In addition to
this officer, we identified one other officer who might exceed the compensation cap
during CY 2011 if a similar retention bonus is paid according to the contractual
agreement. See Appendix B for monetary impact.

IRS Wage and Tax Regulations

The Postal Service did not always properly report Federal Insurance Contributions Act
(FICA) 8 wages or withhold and pay associated taxes to the IRS. During CYs 2008 and
2009, for the only officer that deferred basic salary, the Postal Service:

   Under reported Social Security wages in the amount of $64,675.
   Under paid Social Security taxes in the amount of $8,020.

In addition, during CYs 2008, 2009, and 2010, for five 9 of the eight officers who received
deferred compensation, the Postal Service:

   Did not timely 10 report Medicare wages in the amount of $1,360,598.

3
  IRS regulations require the Postal Service to report Medicare wages when they are earned and withhold and pay
associated Medicare taxes.
4
  Merit pay, or pay-for-performance, for FY 2010, paid in December 2010.
5
  The Postal Service deferred most of the retention bonus since the officer’s salary, merit pay, and portion of the
retention bonus equaled the maximum compensation cap of $276,840.
6
  The retention incentive was guaranteed for as long as the officer remains employed with the Postal Service.
7
  U.S. Railway Association - Matter of Mr. Lewis, B-175155 (Comptroller General. July 1, 1976); Tennessee Valley
Authority - Matter of Patricia Schroeder, B-222334 (Comptroller. General. June 2, 1986); Matter of: Retirement
Benefits of President of Radio Free Europe, B-253469 (Comptroller General September 9, 1993).
8
  FICA is a U.S. payroll (or employment) tax imposed by the federal government on both employees and employers
to fund Social Security and Medicare federal programs that provide benefits for retirees, the disabled, and children of
deceased workers.
9
  Includes one prior and four current officers where deferred compensation has not already been paid.
10
   IRS regulations require the Postal Service to report Medicare wages when they are earned and withhold and pay
associated Medicare taxes.


                                                           2
Officer Compensation for Calendar Year 2010                                                            FT-AR-11-011



    Did not timely withhold or pay Medicare taxes in the amount of $39,457.

As part of our audit, we found the Postal Service executed an agreement allowing one
officer to defer basic salary and any incentive payments or bonuses. IRS Section 409A,
Nonqualified Deferred Compensation, applies to compensation that employees earn in
1 year but is not paid until a future year. According to IRS regulations, 11 deferred
compensation that meets the requirements of Section 409A has no effect on the
employee’s income taxes. 12 That compensation is subject to Social Security and
Medicare taxes “as of the later of the date on which services creating the right to the
amount deferred are performed or the date on which the right to the amount deferred is
no longer subject to a substantial risk of forfeiture.” IRS regulations also stipulate that
FICA taxes apply up to the annual wage base for Social Security taxes and without
limitation for Medicare taxes.

In this case, the officer deferred wages before reaching the Social Security annual wage
base limit. These wages, although contractually deferred, are still subject to Social
Security taxes. As shown in Table 1, by allowing the officer to defer income before
reaching the Social Security annual wage limit, the Postal Service under reported
wages and under withheld and paid associated taxes for the Social Security portion of
FICA. The Postal Service would not likely report these wages or pay associated Social
Security taxes on this officer’s deferred income in a future year when it is paid because
of Social Security wage base limits.




11
   Code of Federal Regulations, Title 26, Chapter I, §31.3121(v)(2)-1(e)(1).
12
   By contrast, under qualified deferred compensation plans (such as compensation deferred under a 401K plan)
contributions and the earnings from those contributions grow tax-deferred until withdrawn. Non-qualified plans are not
eligible for tax-deferral benefits.


                                                          3
Officer Compensation for Calendar Year 2010                                                             FT-AR-11-011




                          Table 1: Social Security Wages and Taxes
 Calendar          Social      Wages        Under      Social     Social                                  Under
                                      13
   Year           Security Reported        Reported Security     Security                                Payment
                  Annual                    Wages     Tax per     Tax on                                 of Social
                   Wage                       per     Annual      Wages                                  Security
                   Base                     Annual     Wage    Reported 16                               Taxes 17
                   Limit                    Limit 14   Base
                                                      Limit 15

     2008         $102,000             $66,211          $35,789        $12,648              $8,210          $4,438

     2009          106,800               77,914           28,886         13,243               9,661           3,582

     2010          106,800          106,800 18                   0       13,243             13,243                  0

 Total:                              $250,925           $64,675        $39,134             $31,114          $8,020
Source: Employee Master File and Eagan Accounts Payables Applications.

Because wages subject to the Medicare portion of FICA are without limitation, we
expanded our scope to include deferred compensation for CYs 2008, 2009, and 2010 19
to determine whether the Postal Service reported Medicare wages and withheld and
paid Medicare taxes in accordance with IRS regulations. As shown in Table 2, we found
the Postal Service did not timely 20 report Medicare wages or timely withhold and pay
associated Medicare taxes for one prior and four current officers. Instead, the Postal
Service intended to report these wages and withhold and pay associated taxes when
the deferred compensation was paid.




13
   Wages reported on U.S. Department of Treasury’s IRS Form W-2, Wage and Tax Statement. Actual earned wages
exceeded the amount reported on Form W-2.
14
   Difference between Social Security annual wage limit and reported wages.
15
   Calculated Social Security tax rate of 6.2 percent each for the Postal Service and the officer on Social Security
annual wage base limit.
16
   Calculated Social Security tax rate of 6.2 percent each for the Postal Service and the officer on wages reported.
17
   Difference between Social Security taxes that would have been paid up to the annual wage base limit and Social
Security taxes on wages reported.
18
   In addition to the $68,769 of regular salary that was not deferred, this amount also includes $185 for officer’s
benefits and a portion of the $44,642 of relocation benefits received in FY 2010.
19
   The statute of limitations (United States Code Title 42, Chapter 7, Subchapter II, §405 (c)(1)(B)) allows correction
of FICA wages and taxes for a period of 3 years, 3 months, and 15 days.
20
   IRS regulations require the Postal Service to report Medicare wages when they are earned and withhold and pay
associated Medicare taxes.


                                                           4
Officer Compensation for Calendar Year 2010                                                          FT-AR-11-011




                                Table 2: Medicare Wages and Taxes
         Calendar Year                 Total of Deferred     Medicare Tax Not Paid
                                      Compensation Not             Timely 22
                                     Timely Reported for
                                          Medicare 21
               2008                                 $391,594                 $11,356
               2009                                  405,302                  11,754
               2010                                  563,702                  16,347
              Total:                                     $1,360,598                                $39,457
     Source: Employee Master File and Eagan Accounts Payables Applications.

This occurred because the Postal Service payroll system does not calculate FICA taxes
on deferred income. As a result, it improperly reported FICA wages and taxes on the
Department of the Treasury’s IRS Form 941, Employer's Quarterly Federal Tax Return;
and on individuals’ IRS W-2 Forms for those years. The IRS can use administrative
procedures to collect delinquent taxes when they are not paid timely. This could tarnish
the Postal Service’s reputation and brand image. See Appendix B for other impact.

Recommendations

We recommend the postmaster general:

1. Develop and implement policies and procedures to ensure adherence to
   compensation cap limitations.

We recommend the vice president, controller:

2. Report and pay the correct amount of Social Security and Medicare wages and
   taxes owed to the Internal Revenue Service.

3. Establish accounts receivables for current and prior officers’ portions of Social
   Security and Medicare taxes on deferred compensation.

4. In coordination with the chief information officer, modify the Postal Service payroll
   system to calculate Social Security and Medicare taxes on deferred income.

Management’s Comments

Management disagreed with recommendation 1 and its corresponding monetary impact,
stating no officer’s compensation has exceeded statutory limits. They stated that current
policies and procedures are effective to ensure compliance with caps and limitations, so
no changes are necessary. However, they agreed to more clearly link enhanced
21
  Total of deferred compensation not timely reported for Medicare for one prior and four current officers.
22
  Calculated Medicare tax rate of 1.45 percent each for the Postal Service and the officer on deferred compensation
not reported timely.


                                                         5
Officer Compensation for Calendar Year 2010                                    FT-AR-11-011



compensation to performance in future agreements and to modify the two contracts
cited in the report.

In support of their position that the cap was not exceeded, management contended that
statutory pay caps for the Postal Service are significantly different than the statutes at
issue in the GAO comptroller general decisions. They also noted that one of the
comptroller general decisions cited in our draft report was incorrect. In addition, they
believe the Postal Service has implemented its compensation cap statutes in a manner
similar to Office of Personnel Management (OPM) regulations governing compensation
caps, so it has not violated those statutes. Furthermore, they stated that officers serve
at the pleasure of the postmaster general and cannot challenge their discharge in the
same manner as other Postal Service employees.

Management agreed with recommendations 2 through 4 but stated that the U.S. Postal
Service Office of Inspector General (OIG) did not report tax-related issues in the prior
audits and they relied on pr evious audits of officer compensation practices. They also
noted that the Postal Service’s current practice with regard to deferred compensation is
to withhold and pay Social Security taxes when the previously deferred monies are paid
out. Notwithstanding, they agreed to report and submit corrected Social Security and
Medicare wages and taxes to the IRS, establish accounts receivables as necessary for
the employees’ portion of these taxes, and modify processes and/or systems as
necessary. Management plans to complete these actions by December 31, 2011.

See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. Although
management disagreed with recommendation 1, we believe the actions cited by
management to more clearly link enhanced compensation to performance in current
and future agreements will address the finding.

We maintain, however, that the Postal Service exceeded its compensation cap. The
OIG considered and agrees that OPM guidance on aggregate limitation on pay is
relevant. However, although the Postal Service has the authority to defer compensation,
it must also conform to GAO decisions addressing whether certain deferred
compensation arrangements circumvent salary caps applicable to other agencies. Even
though the statutes applied to different entities, the decisions addressed similar annual
salary cap issues.

Further, for the instance discussed in the report, the employment agreement includes a
bonus with a payment condition requiring that the officer simply remain employed as of
a specified date on which the payment is to be made. The officer is not required to meet
any performance measures or achieve any specific goal to receive the payment.




                                              6
Officer Compensation for Calendar Year 2010                                    FT-AR-11-011



In addition, federal executives ultimately serve at the pleasure of the respective
agency’s head, so the ability to terminate is not equivalent to linking the payment to the
employee’s performance for salary cap considerations. We continue to believe that
deferred income not linked to performance is regular and expected and can be readily
characterized as the equivalent of salary. As such, this income must be included in the
officer’s total compensation subject to the compensation cap. We will report the amount
deferred as monetary impact.

Regarding Social Security and Medicare wages and taxes, our prior audit work in this
area focused only on whether the Postal Service complied with the Postal Act of 2006
limits on annual compensation for officers, not a review of IRS laws and regulations.
However, when we prepared for this audit, we became aware of potential tax issues, so
we expanded our objectives for this audit to include them. The fact that the OIG did not
report tax-related issues in the past does not preclude the OIG from reporting non-
compliance when we become aware of such situations. In addition, it is management’s
responsibility to comply with applicable laws and r egulations. They should not solely rely
on the OIG as a management function to determine compliance.

Regarding the mis-citation of a comptroller general decision, as noted by management,
we agree and have revised the report accordingly. Further, as management noted, we
were made aware that the current practice with regard to deferred compensation is to
withhold and pay Social Security taxes when the previously deferred monies are paid
out. We included references to that policy in the draft and final reports.

The OIG considers recommendation 1 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.




                                              7
Officer Compensation for Calendar Year 2010                                                          FT-AR-11-011



                                     Appendix A: Additional Information

Background

The passage of the Postal Act of 2006 amended United States Code Title 39, imposing
guidelines on total compensation 23 for the Postal Service. Under this provision, the total
compensation payable to any employee is established at three levels:

    The first cap provides that no officer or employee may be paid compensation at a
     rate in excess of the rate for level I of the Executive Schedule. This compensation
     limit was set at $199,700 for CY 2010.

    With the approval of the Board of Governors (Board), however, the Postal Service
     may develop a pr ogram to award a bonus or other reward in excess of the above
     compensation cap, as long as this does not cause the total annual compensation
     paid to the officer to exceed the total annual compensation payable to the vice
     president of the U.S. at the end of the calendar year in which the bonus or award is
     paid. In approving any such program, the Board must determine that the bonus or
     award is based on a performance appraisal system that makes meaningful
     distinctions based on relative performance. This total compensation cap was
     $230,700 for CY 2010.

    In addition, the Board may allow up to 12 officers or employees of the Postal
     Service, in critical senior executive or equivalent positions, to be paid total annual
     compensation of up to 120 percent of the total annual compensation payable to the
     vice president of the U.S. as of the end of the calendar year in which such payment
     is received. This compensation cap was $276,840 for CY 2010.

Postal Service officers receive additional benefits and other perquisites, including
increased annual leave exchange hours, free financial counseling and parking, life
insurance, and health benefits. 24 These items are not generally subject to the
compensation guidelines defined in the Postal Act of 2006.

Also, in certain limited cases, the Postal Service entered into agreements to provide
executive retention bonuses that may take the form of deferred compensation. Based
on GAO comptroller general decisions, 25 if this compensation is not related to
performance, it is considered wages and subject to compensation cap in the year it is
earned.



23
   Compensation includes annual salary, merit lump sum payments, bonuses, awards, and deferred payments not
tied to performance.
24
   The Postal Service offers driver and personal security services through the Postal Inspection Service to the
postmaster general.
25
   U.S. Railway Association - Matter of Mr. Lewis, B-175155 (Comptroller General. July 1, 1976); Tennessee Valley
Authority - Matter of Patricia Schroeder, B-222334 (Comptroller General, June 2, 1986); Matter of: Retirement
Benefits of President of Radio Free Europe, B-253469 (Comptroller General September 9, 1993).



                                                         8
Officer Compensation for Calendar Year 2010                                    FT-AR-11-011



Objective, Scope, and Methodology

The objective of this portion of the FY 2011 Financial Statements Audit – Eagan IT/ASC
was to determine whether the Postal Service complied with the Postal Act of 2006 cap,
Postal Service policies and guidelines, and IRS regulations for CY 2010 compensation
for officers.

To achieve our objective we:

   Reviewed information from the Employee Master File.
   Reviewed the Eagan Accounts Payables application.
   Reviewed IRS guidelines.
   Reviewed employment agreements.
   Interviewed Postal Service personnel.
   Performed benchmarking.

Our initial scope included compensation paid to all current officers as of
December 31, 2010. However, we expanded it to include agreements to provide
executive retention bonuses that may take the form of deferred compensation as a
result of Senator Collins’ inquiries. We also expanded our scope to include all officers
that received deferred compensation from CYs 2008 through 2010 to facilitate our
review of IRS wage and tax regulations.

We conducted this portion of the audit from January through September 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls, as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 10, 2011, and included their
comments where appropriate.

We relied on computer-generated data from payroll systems and the Eagan Accounts
Payable System for testing compensation, awards, bonuses, annual leave exchange,
and deferred compensation. We assessed the reliability of this data by reviewing
existing information about the data and the system that produced them, interviewing
agency officials knowledgeable about the data, and using advanced data analysis
techniques. We also performed specific internal control and transaction tests including
tracing selected information to supporting source records. We determined that the data
were sufficiently reliable for the purposes of this report.




                                              9
    Officer Compensation for Calendar Year 2010                                      FT-AR-11-011




    Prior Audit Coverage

                                              Final
                         Report              Report        Monetary
   Report Title          Number               Date          Impact       Report Results
Officer               FT-WP-10-001          4/12/10           $0      We made no
Compensation for                                                      recommendations.
Calendar Year
2009
Officer               FT-WP-09-002          6/17/09           $0      We made no
Compensation                                                          recommendations.
for Calendar
Year 2008
Executive             FT-WP-09-001          12/05/08         $670     We identified one
Compensation                                                          executive exceeding
                                                                      the compensation limit
                                                                      in CY 2007.
                                                                      Management took
                                                                      corrective action so we
                                                                      made no
                                                                      recommendations.




                                                      10
Officer Compensation for Calendar Year 2010                                                            FT-AR-11-011



                                 Appendix B: Monetary and Other Impacts

                                               Monetary Impact

                Finding                                 Impact Category                         Amount
      Compensation Cap                               Questioned Cost 26                           $59,174

                                                  Other Impact

                   Finding                              Impact Category                        Amount
      IRS Wage and Tax Regulations                   Goodwill/Branding 27                         $8,020
      (Social Security Tax)
      IRS Wage and Tax Regulations                   Goodwill/Branding                                39,457
      (Medicare Tax)
             Total                                                                                  $47,477




26
   Unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, and so forth. May be
recoverable or unrecoverable. Usually a result of historical events.
27
   An actual or potential event or problem that could harm the reputation of the Postal Service.


                                                         11
Officer Compensation for Calendar Year 2010                    FT-AR-11-011



                           Appendix C: Management’s Comments




                                              12
Officer Compensation for Calendar Year 2010        FT-AR-11-011




                                              13
Officer Compensation for Calendar Year 2010        FT-AR-11-011




                                              14
Officer Compensation for Calendar Year 2010        FT-AR-11-011




                                              15
Officer Compensation for Calendar Year 2010        FT-AR-11-011




                                              16
Officer Compensation for Calendar Year 2010        FT-AR-11-011




                                              17
Officer Compensation for Calendar Year 2010        FT-AR-11-011




                                              18
